Example of Credit Card Agreement for Bank
of America® World Elite Mastercard® accounts

This information is accurate as of June 30, 2021.

This credit card program is issued and administered by Bank of America, N.A. Mastercard and World Elite
Mastercard are registered trademarks of Mastercard International Incorporated and are used by the issuer
pursuant to license. Bank of America is a registered trademark of Bank of America Corporation.

1

PRICING INFORMATION
Actual pricing will vary from one cardholder to another
Annual Percentage Rates for Purchases
These APRs will vary with the
market based on the Prime Rate (as
of 06/30/2021)

Prime + 12.74% to Prime + 20.74%

(APR) 15.99% to 23.99%
(DPR) 0.043808% to 0.065726%

Annual Percentage Rates for Balance
Transfers
These APRs will vary with the
market based on the Prime Rate (as
of 06/30/2021)

Prime + 12.74% to Prime + 20.74%
(APR) 15.99% to 23.99%
(DPR) 0.043808% to 0.065726%

Annual Percentage Rates for Direct
Deposit and Check Cash Advances
These APRs will vary with the
market based on the Prime Rate (as
of 06/30/2021)

Prime + 15.74% to Prime + 23.74%
(APR) 18.99% to 26.99%
(DPR) 0.052027% to 0.073945%

Annual Percentage Rates for Bank Cash
Advances
These APRs will vary with the
market based on the Prime Rate (as
of 06/30/2021)
Penalty APR and When it Applies

Prime + 23.99% to Prime + 25.74%
(APR) 27.24% to 28.99%
(DPR) 0.074630% to 0.079424%
Up to 29.99%, based on your creditworthiness. This APR will vary with the
market based on the Prime Rate.
This APR may be applied to new transactions on your account if you:
• Make a late payment.

Minimum Interest Charge

How Long Will the Penalty APR apply?:
If your APR is increased for this reason, the Penalty APR will apply
indefinitely.
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.
If you are charged interest, then the charge will be no less than $1.50.

Account Fees
Annual

$79 to $90

Paying Interest

Transaction Fees
Balance Transfer % of Transaction

3% (min: $10 to max: uncapped)

ATM Cash Advance % of
Transaction

5% (min: $10 to max: uncapped)

Cash Equivalent % of Transaction

5% (min: $10 to max: uncapped)

Check Cash Advance % of
Transaction

3% (min: $10 to max: uncapped)

1

Direct Deposit % of Transaction

3% (min: $10 to max: uncapped)

Overdraft Protection Fee

For transfers to a linked Bank of America deposit account opened in GA, IL,
KY, MI or TN:
Prior to June 18, 2021: $12 for each transaction billed to your credit
card account
Effective June 18, 2021: no fee will be assessed to your credit card
account*
For transfers to a linked Bank of America deposit account opened in all
other locations:
Prior to August 20, 2021: $12 for each transaction billed to your
credit card account
Effective August 20, 2021: no fee will be assessed to your credit
card account*

Over the Counter Cash Advance
% of Transaction

5% (min: $10 to max: uncapped)

Same-Day Online Cash Advance %
of Transaction

5% (min: $10 to max: uncapped)

Wire Transfer % of Transaction

5% (min: $10 to max: uncapped)

Penalty Fees
Late Payment Fee

Up to $40

Returned Payment Fee

Up to $29

*Your linked deposit account may be subject to a $12.00 fee for each transaction according to your deposit account agreement.
How We Will Calculate Your Balance: For Purchase balances, we will use a method called “average daily balance (including
new Purchases).” See the section titled Balances Subject to Interest Rate in your Credit Card Agreement for more details.
For Balance Transfer and Cash Advance balances, we will use an Average Balance Method (including new Balance Transfers and
Cash Advances): This balance is figured by adding the outstanding balance (including new Balance Transfers and Cash
Advances and deducting payments and credits) for each day in the current billing cycle, together with the balances for each day
in the previous billing cycle for balance transfers and cash advances with transaction dates in the previous cycle and posting
dates in the current cycle, and then dividing by the number of days in the current billing cycle.
Military Lending Act Disclosure: The following disclosure applies to persons covered by the Military Lending Act – other
governmental programs and laws may also govern or apply to this transaction but are not described in the following disclosure.
The following disclosure is required by the Military Lending Act.
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: the
costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any
application fee charged (other than certain application fees for specified credit transactions or accounts); and any participation
fee charged (other than certain participation fees for a credit card account).
Please refer to the Total Minimum Payment Due section of the Credit Card Agreement accompanying this disclosure to see how
your monthly minimum payment is calculated.
Please call our dedicated Military Lending Act toll free number at 844.441.9168 or call collect at 302.318.8745 with any
questions or concerns.

2

CREDIT CARD AGREEMENT
YOUR CONTRACT WITH US

Purchase means the use of your card or account number (including
through the use of an enabled mobile device) to:
1. buy or lease goods or services;
2. buy wire transfers from a non-financial institution
(Wire Transfer Purchase);
3. make a transaction that is not otherwise a Cash
Advance.

This document, and any future changes to it, is your contract with
us. We will refer to this document as your "Agreement" or "Credit
Card Agreement"; these terms also include any changes we may
make to this document from time to time.
We reserve the right to amend this Agreement at any time, by
adding, deleting, or changing provisions of this Agreement. All
amendments will comply with the applicable notice requirements of
federal and North Carolina law that are in effect at that time.

Purchases include Account Fees, as well as Transaction Fees and
adjustments associated with any Purchase.

If an amendment gives you the opportunity to reject the change,
and if you reject the change in the manner provided in such
amendment, we may terminate your right to receive credit and may
ask you to return all credit devices as a condition of your rejection.
We may replace your card with another card at any time.

Balance Transfer means a transfer of funds to another creditor
initiated by us at your request. A Balance Transfer does not include
a transaction that is otherwise a Cash Advance. Balance Transfers
include Transaction Fees and adjustments associated with any
Balance Transfer.

The reasons we may amend this Agreement include the
following:

A Cash Advance means the use of your account for a loan in the
following ways:
1. Direct Deposit: by a transfer of funds via an ACH
(Automated Clearing House) transaction to a deposit
account initiated by us at your request. A Direct
Deposit does not include an Overdraft Protection Cash
Advance or a Same-Day Online Cash Advance.
2. Check Cash Advance: by an access check you sign as
drawer.
3. Bank Cash Advance: by loans accessed in the
following manner:
a. ATM Cash Advance: at an automated teller
machine;
b. Over the Counter (“OTC”) Cash Advance: at
any financial institution (e.g., to obtain cash,
money orders, wire transfers, or travelers checks);
c. Same-Day Online Cash Advance: by a same
day online funds transfer to a deposit account;
d. Overdraft Protection Cash Advance: by a
transfer of funds to a deposit account pursuant to
an overdraft protection program (see the section
titled Overdraft Protection below);
e. Cash Equivalents: by the purchase of foreign
currency, money orders, travelers checks, or to
obtain cash, each from a non-financial institution,
or person-to-person money transfers, bets,
lottery tickets purchased outside the United
States, casino gaming chips, cryptocurrency, or
bail bonds, with your card or account number
(including through the use of an enabled mobile
device).

• Changes in regulation or legislation, or a change in the
interpretation of a regulation or legislation.
• Changes related to your individual credit history, such
as: your risk profile, your payment or transaction
patterns, balance patterns, the utilization levels of this
and other accounts, credit bureau information including
the age, history and type of other accounts, and the
measure of risk associated with each.
• Changes to overall economic and market trends,
product design, and business needs.
"We", "us", "our" means Bank of America, N.A.
"You" and "your" mean each and all of the persons who are granted,
accept or use the account and any person who has guaranteed
payment of the account.
You may use your account for personal, family, or household
purposes. You may not use your account for business or commercial
purposes.
Our failure or delay in exercising any of our rights under this
Agreement does not mean that we are unable to exercise those
rights later.

TYPES OF TRANSACTIONS
You may obtain credit in the form of Purchases, Balance
Transfers, and Cash Advances, by using cards, access checks, an
account number, or other credit devices. Balance Transfers and
certain Cash Advances, such as Direct Deposits, are made available
to you at our discretion. Cards are all the credit cards we issue to
you and to any other person with authorization for use on this
account pursuant to this Agreement. Sign your card before using it.
A Personal Identification Number (PIN) is associated with your
credit card as of the opening of your account. You may be required
to use a PIN to make an ATM Cash Advance or to complete
Purchases at certain merchant terminals, generally overseas. You
can obtain your PIN by going to our online banking site or our
mobile application, or contacting us. An access check is a check we
provide to you to obtain credit on this account. All access checks
include an expiration date printed at the top. We will honor access
checks received for payment before the expiration date printed on
the check, provided your account is open and in good standing, with
available credit. Access checks without a printed expiration date will
not be honored.

Cash Advances include Transaction Fees and adjustments
associated with any Cash Advance.
All Bank Cash Advances are subject to the Cash Credit Line. For
more information on credit lines, please refer to the section titled
Your Credit Lines within this Agreement.
You agree that we may rely on information provided by merchants
and your applicable payment network to categorize transactions
among Purchases, Balance Transfers, or various types of Cash
Advances.
YOUR CREDIT CARD ACCOUNT AND YOUR MOBILE PHONE
OR OTHER MOBILE DEVICES
Smart phones, some tablets or other mobile devices (a “mobile
device”) can download, store, and/or access account information,

1

for instance through a mobile wallet, that may enable you to use
the mobile device to purchase goods or services, make a balance
transfer, or make a cash advance.

full.
PENALTY APR AND WHEN IT APPLIES
(If your account is subject to Penalty APR)
The Penalty APR is the APR(s) which may be applied to new
Purchases, Balance Transfers, and Cash Advances, for certain
default occurrences as described below.

In certain instances, those transactions will replicate using your
card to make a transaction on the internet with your computer. In
other instances, the phone or mobile device will act as if it were a
credit card itself. Applications that enable your mobile device will
have unique terms governing those applications. Read them
carefully. Transactions made through those applications are
governed by this Agreement.

We may increase the APRs on new transactions up to the Penalty
APR, based on your creditworthiness, each time a Total Minimum
Payment Due is not received by its applicable Payment Due Date.
We may elect to set your APRs for Purchases, Balance Transfers,
Direct Deposit and Check Cash Advances, and Bank Cash Advances
to different Penalty APRs. We will provide you with a minimum of
45 days advance notice. An increased Penalty APR will remain in
effect indefinitely.

When your credit card account information is accessible by your
mobile device, it is important that you treat your mobile device with
the same care you would your credit card. For example, you should
secure your mobile device against unauthorized access. Keep in
mind, if you give someone your phone, or other mobile device, that
can be the same as giving that person your credit card.

Penalty APRs are variable rates calculated using the variable rate
formula with a margin of up to 26.74 percentage points; this
currently results in an APR of 29.99% (0.082164% DPR). The
calculated Penalty APR using this variable rate formula will not
exceed 29.99%.

TRANSACTIONS MADE IN FOREIGN CURRENCIES
If you make a transaction in a foreign currency, the transaction will
be converted by Visa International or Mastercard International,
depending on which card is associated with this account, into a U.S.
dollar amount in accordance with the operating regulations or
conversion procedures in effect at the time the transaction is
processed. The currency conversion rate used by Visa is either (a) a
rate selected by Visa from the range of rates available in wholesale
currency markets for the applicable processing date, which rate
may vary from the rate Visa receives; or (b) the rate mandated by a
government or governing body in effect for the applicable
processing date. The currency conversion rate for Mastercard is
based on (a) rates observed in the wholesale market or (b)
government-mandated rates, where applicable, for the transaction
date or the processing date. The currency conversion rate in effect
on the processing date may differ from the rate in effect on the
transaction date or posting date.

HOW TO CALCULATE VARIABLE RATES
Variable Rates are calculated by adding together an index and a
margin. This index is the highest U.S. Prime Rate as published in the
“Money Rates” section of The Wall Street Journal on the last
publication day of each month.
An increase or decrease in the index will cause a corresponding
increase or decrease in your variable rates on the first day of your
billing cycle that begins in the same month in which the index is
published. An increase in the index means that you will pay higher
interest charges and have a higher Total Minimum Payment Due. If
The Wall Street Journal does not publish the U. S. Prime Rate, or if it
changes the definition of the U.S. Prime Rate, we may, in our sole
discretion, substitute another index.
CALCULATION AND BILLING OF INTEREST CHARGES

INTEREST AND FEES

We calculate interest by multiplying each Balance Subject to
Interest Rate by its applicable DPR and that result is multiplied by
the number of days in the billing cycle. Interest is calculated and
posted to the applicable Purchase, Balance Transfer or Cash
Advance balance on the last day of the billing cycle after all other
transactions have posted and payments have been allocated.

INTEREST RATES - ANNUAL PERCENTAGE RATES (APRs)
This section provides the interest rates, also referred to as
corresponding Annual Percentage Rates (APRs), which are
applicable to your account. The APR corresponds to the Daily
Periodic Rates (DPRs): the APR is equal to the DPR multiplied by
365, and the DPR is equal to the APR divided by 365. Interest
charges are calculated by using the DPR. If a rate is a variable rate,
we calculate that APR by adding together an index and a margin.
For more information on variable rates, please refer to the How to
Calculate Variable Rates section within this summary.

BILLING CYCLE
A billing cycle is a time period that ends on a Statement Closing
Date (or Closing Date) determined by us and begins on the day after
the Closing Date of the previous billing cycle. Each monthly
statement reflects a single billing cycle.

PROMOTIONAL RATES AND FEES
Promotional or Introductory Offers are temporary APRs
(Promotional or Introductory Rates) or transaction fees
(Promotional or Introductory Fees) that are offered on certain
qualifying new transactions for a specified period of time. Each
Offer will be assigned a unique Offer ID which will appear on your
credit card statement after the first qualified new transaction for
that Offer. If you revolve your balance to take advantage of a
Promotional or Introductory Offer, all transactions and balances,
including purchases, will be charged interest.

PAYING INTEREST
When applicable, interest accrues daily and compounds daily on new
transactions, and balances remaining from previous billing cycles.
Interest will continue to accrue even though you have paid the full
amount of any related balances because we include any accrued but
unpaid interest in the calculation of each Balance Subject to
Interest Rate.
We will not charge you any interest on Purchases if you always pay
your entire New Balance Total by the Payment Due Date.
Specifically, you will not pay interest for an entire billing cycle on
Purchases if you Paid in Full the two previous New Balance Totals
on your account by their respective Payment Due Dates; otherwise,
each Purchase begins to accrue interest on its transaction date or
the first day of the billing cycle, whichever date is later.

CURRENT RATES
Your current rate is the rate that will apply to transactions that are
not subject to an Introductory or a Promotional Rate.
[see the Pricing Information table for current rates]
RATES FOR PROTECTED BALANCES
When an interest rate change for new transactions is applied to
your account, any existing balances of that type will be identified as
Protected Balances on your statement. These Protected Balances
generally are kept at their current APR until the balances are paid in

We will begin accruing interest on Balance Transfers and Cash
Advances on the transaction date. The transaction date for access
checks is the date the check is first deposited or cashed.
New Balance Total means the total billed amount as of the Closing

2

Date of a billing cycle, as shown on your monthly statement.

Cash Equivalent

Pay in Full or Paid in Full means payments and credits (excluding
credits made in accordance with first-year fee limits or the Military
Lending Act) in a billing cycle totaling at least your previous billing
cycle's New Balance Total.

Check Cash Advance
Direct Deposit
Overdraft Protection

Your Payment Due Date will be at least 25 days from your
statement Closing Date and will fall on the same calendar day each
month.

Over the Counter Cash Advance
Same-Day Online Cash Advance

BALANCES SUBJECT TO INTEREST RATE
Average Daily Balance Method (including new Purchases): We
calculate separate Balances Subject to an Interest Rate for
Purchases and for each Introductory or Promotional Offer balance
consisting of Purchases by: (1) calculating a daily balance for each
day in the current billing cycle; (2) adding all the daily balances
together; and (3) dividing the sum of the daily balances by the
number of days in the current billing cycle.

Wire Transfer Purchase
ACCOUNT FEES
The following fees are assessed as Purchases in the billing cycle in
which the fees accrue:
An Annual Fee: [see the Pricing Information table for fee amount].
The Annual Fee will be assessed each [month of account opening] if
your account is open or if you maintain an account balance, whether
or not you have active charging privileges.

To calculate the daily balance for each day in the current billing
cycle, we: (1) take the beginning balance; (2) add an amount equal
to the applicable DPR multiplied by the previous day's daily balance;
(3) add new Purchases, new Account Fees, and new Transaction
Fees; and (4) subtract applicable payments and credits. If any daily
balance is less than zero we treat it as zero.

We will assess a Late Fee, if the Total Minimum Payment Due
shown on your monthly statement is not received by us on or
before its Payment Due Date. The Late Fee will not exceed the
Total Minimum Payment Due immediately prior to assessment of
the fee. On the Late Fee transaction date: [see the Pricing
Information table for fee amount]

Average Balance Method (including new Balance Transfers
and new Cash Advances): We calculate separate Balances Subject
to an Interest Rate for Balance Transfers, Cash Advances, and for
each Introductory or Promotional Offer balance consisting of
Balance Transfers or Cash Advances by: (1) calculating a daily
balance for each day in the current billing cycle; (2) calculating a
daily balance for each day prior to the current billing cycle that had
a “Pre-Cycle balance” – a Pre-Cycle balance is a Balance Transfer or
a Cash Advance with a transaction date prior to the current billing
cycle but with a posting date within the current billing cycle; (3)
adding all the daily balances together; and (4) dividing the sum of
the daily balances by the number of days in the current billing cycle.

A Returned Payment Fee of [see the Pricing Information table for
fee amount] if a payment on your account is returned for
insufficient funds or for any other reason, even if it is paid upon
subsequent presentment (if we elect to re-present the payment).
The Returned Payment Fee will not exceed the Total Minimum
Payment Due immediately prior to assessment of the fee, and will
never exceed the amount of the payment being returned.

PAYMENTS AND DEFAULT
YOUR PROMISE TO PAY
You promise to pay us the amounts of all credit you obtain, which
includes all Purchases, Balance Transfers, and Cash Advances. You
also promise to pay us all the amounts of interest charges, fees,
and any other transactions charged to your account.

To calculate the daily balance for each day in the current billing
cycle, we: (1) take the beginning balance; (2) add an amount equal
to the applicable DPR multiplied by the previous day's daily balance;
(3) add new Balance Transfers, Cash Advances and Transaction
Fees; and (4) subtract applicable payments and credits. If any daily
balance is less than zero we treat it as zero.

PAYMENTS ON YOUR ACCOUNT
You must pay each month at least the Total Minimum Payment Due
shown on your monthly statement by its Payment Due Date.
Payments must conform to the requirements set out on that
monthly statement; these requirements may vary without prior
notice. You may pay the entire amount you owe us at any time.
Payments made in any billing cycle that are greater than the Total
Minimum Payment Due will not affect your obligation to make the
next Total Minimum Payment Due. If you overpay or if there is a
credit balance on your account, we will not pay interest on such
amounts. We will reject payments that are not drawn in U.S. dollars
and those drawn on a financial institution located outside of the
United States. We reserve the right to reject any payment if your
account has a credit balance as of the day we receive that payment.
Generally, credits to your account, such as those generated by
merchants or by person-to-person money transfers, are not treated
as payments and will not reduce your Total Minimum Payment Due.

To calculate a daily balance for each day prior to the current billing
cycle that had a Pre-Cycle balance, we: (1) take the beginning
balance attributable solely to a Pre-Cycle balance (which will be
zero on the transaction date associated with the first Pre-Cycle
balance); (2) add an amount equal to the applicable DPR multiplied
by the previous day's daily balance; and (3) add only the applicable
Pre-Cycle balances, and their related Transaction Fees. We exclude
from this calculation all transactions posted in previous billing
cycles.
MINIMUM INTEREST CHARGE
If the total of the interest charges for all balances is less than
$1.50, then a Minimum Interest Charge of $1.50 will be assessed
on the account. This fee is in lieu of any interest charge.
TRANSACTION FEES
We will assess the following Transaction Fees to your account in
the same balance category to which the transaction is posted, [see
the Pricing Information table for fee amounts].

PAYMENT CONVERSIONS
We process most payment checks electronically. We use the
information on your check to create an electronic funds transfer.
Each time you send a check, you authorize a one-time electronic
funds transfer. You also authorize us to process your check as a
check or paper draft, as necessary. Funds may be withdrawn from
your account as soon as the same day we receive your payment.

Balance Transfer
ATM Cash Advance

3

You will not receive your cancelled check because we are required
to destroy it. We will retain an electronic copy.

WHEN WE MAY REQUIRE IMMEDIATE REPAYMENT
If you are in default, then in addition to our other remedies under
this Agreement, we can require immediate payment of your total
outstanding balance and, unless prohibited by applicable law, we
can also require you to pay the costs we incur in any collection
proceeding, as well as reasonable attorneys' fees if we refer your
account for collection to an attorney who is not our salaried
employee.

TOTAL MINIMUM PAYMENT DUE
You may pay your total outstanding balance at any time. Each
billing cycle, you must pay at least the Total Minimum Payment Due
shown on your monthly statement by its Payment Due Date. The
Total Minimum Payment Due is the sum of all past due amounts
plus the Current Payment.

OTHER PAYMENT TERMS
We can accept late payments, partial payments, or payments with
any restrictive writing without losing any of our rights under this
Agreement. This means that no payment, including those marked
with paid in full or with any other restrictive words, shall operate as
an accord and satisfaction without the prior written approval of one
of our senior officers. You may not use a postdated check to make a
payment. If you do postdate a payment check, we may elect to
honor it upon presentment or return it uncredited to the person
that presented it, without in either case waiting for the date shown
on the check. We are not liable to you for any loss or expense
arising out of the action we elect to take.

The Current Payment for each billing cycle includes three amounts:
(1) 1.00% of your balance (your New Balance Total except for any
new interest charges and any new Late Fee), and (2) new interest
charges, and (3) any new Late Fee. Your current Payment will not be
less than $35.00. We round the payment amount down to the
nearest dollar.
The Total Minimum Payment Due will not be greater than your New
Balance Total. If a payment is credited to your account but is
returned unpaid in a later billing cycle, we will recalculate the Total
Minimum Payment Due for the billing cycle in which the payment
was originally credited.
WHEN YOUR PAYMENT WILL BE CREDITED TO YOUR
ACCOUNT
We credit mailed payments as of the date received, if the payment
is: (1) received by 5 p.m. local time at the address shown on the
remittance portion of your monthly statement; (2) paid with a check
drawn in U.S. dollars on a U.S. financial institution or a U.S. dollar
money order; and (3) sent in the return envelope with only the
remittance portion of your statement accompanying it. However,
mailed payments need not be sent in a return envelope if we sent
you a statement without a return envelope. Payments received
after 5 p.m. local time at the remittance address on any day
including the Payment Due Date, but that otherwise meet the
above requirements, will be credited as of the next day. Credit for
any other payments may be delayed up to five days.

MODIFICATIONS TO REQUIRED MINIMUM MONTHLY
PAYMENTS
We may allow you, from time to time, to omit a monthly payment
or make a reduced payment. We will notify you when these options
are available. This will only occur on an isolated basis, such as when
the bank is working with borrowers affected by a federally declared
disaster. If in response to this notification, you omit a payment or
make a reduced payment, interest charges, applicable fees, and
other regular transactions, if any, will accrue on your account
balances in accordance with this Agreement. The reduced payment
amount may be less than your interest charges. You must make the
reduced payment on time to avoid a Late Fee. You must resume
making your regular Total Minimum Payment Due each month
following any modifications made to your required minimum
monthly payment.

HOW WE ALLOCATE YOUR PAYMENTS
Monthly minimum payments are required when you carry a balance.
Payments are allocated to posted balances. If your account has
balances with different APRs, we will allocate the amount of your
payment equal to the Total Minimum Payment Due to the lowest
APR balances first. Payment amounts in excess of your Total
Minimum Payment Due will be applied to balances with higher APRs
before balances with lower APRs. If a payment is returned, we
reserve the right to debit the returned payment amount to the
balance subject to the current non-promotional rate for Purchases
on the account.

CREDIT AVAILABILITY
YOUR CREDIT LINES
Your Total Credit Line and Cash Credit Line are disclosed to you
when you receive your card and, generally, on each monthly
statement. The Total Credit Line is the amount of credit available
for the account; however, only a portion of that is available for Bank
Cash Advances. The Cash Credit Line is that amount you have
available for Bank Cash Advances. The amount of credit available in
your Cash Credit Line will never exceed the amount of credit
available in your Total Credit Line.

PROMISE TO PAY APPLIES TO ALL PERSONS
All persons who initially or subsequently request, are granted,
accept, guarantee or use the account are individually and together
responsible for any total outstanding balance. If you are responsible
to pay any total outstanding balance, we may refuse to release you
from liability until all of the cards, access checks, and other credit
devices outstanding under the account have been returned to us
and you repay us the total outstanding balance owed to us under
the terms of this Agreement.

We may change your credit lines from time to time. We base that
decision on a variety of factors such as your payment and
transaction history with us, and information we receive from third
parties, including credit reporting agencies. The amounts shown on
your monthly statement as available credit do not take into account
Purchases, Balance Transfers, Cash Advances, interest charges,
fees, any other transactions, or credits which post to your account
after the Closing Date of that monthly statement.

DEFAULT
You will be in default of this Agreement if: (1) you fail to make any
required Total Minimum Payment Due by its Payment Due Date; (2)
your total outstanding balance exceeds your Total Credit Line; (3)
your Bank Cash Advance balance exceeds your Cash Credit Line; or
(4) you fail to abide by any other term of this Agreement. Solely for
the purposes of determining eligibility and premium payment
obligations for the optional credit insurance purchased through
Bank of America, you will be deemed in default or delinquent if you
fail to make a payment within 90 days of your Payment Due Date.

WHAT WE MAY DO IF YOU ATTEMPT TO EXCEED YOUR
CREDIT LINES
The total outstanding balance on your account plus authorizations
at any time must not be more than your Total Credit Line. The total
outstanding balance of your Bank Cash Advances (plus
authorizations) must not be more than your Cash Credit Line.
Each time you attempt a transaction which results in your
applicable outstanding balance (plus authorizations) exceeding a
credit line, we may: (1) permit the transaction without raising your
credit line; (2) permit the transaction and treat the amount of the

4

transaction that is more than the credit line as immediately due; or
(3) refuse to permit the transaction.

by that person including transactions for which you may not have
intended to be liable, even if the amount of those transactions
causes a credit line to be exceeded. Authorized users of this
account may have the same access to information about the
account and its users as the account holders. We may send account
materials (cards, statements and notices) to any liable party, and
that person will be responsible for delivering those materials to the
other liable parties and authorized users. Notice to any of you will
be considered notice to all of you. You may allow authorized users
on your account in the following ways: (1) by notifying us that you
want someone added to your account as an authorized user; (2) by
lending or otherwise intentionally making your card, account
number, or credit device accessible to another; or (3) by any other
ways in which you would be legally considered to have allowed
another to use your account or to be legally prevented from denying
that you did so. You must think carefully before you allow anyone to
become an authorized user. By doing so, you authorize the person
to use your account to the same extent you can, including but not
limited to making any Purchases, Balance Transfers, Cash Advances,
and allowing others to use your account. Your account does not
permit you to limit the nature or amount of authority you give to
any authorized user and you will not attempt to do so. An
authorized user's authority will continue until you both notify us
that you are terminating the authority and you physically retrieve
the card or other credit device.

If we refuse to permit the transaction, we may advise the person
who attempted the transaction that it has been refused. If we
refuse to permit a Check Cash Advance or Balance Transfer, we
may do so by advising the person presenting the Check Cash
Advance or Balance Transfer that credit has been refused, that
there are insufficient funds to pay the Check Cash Advance or
Balance Transfer, or in any other manner.
WE MAY SUSPEND OR CLOSE YOUR ACCOUNT
We may suspend or close your account or otherwise terminate your
right to use your account. We may do this at any time and for any
reason. We may elect to not honor any access check which is
written after the expiration date printed on that check. You may
close your account at anytime by notifying us in writing or by
telephone. Your obligations under this Agreement continue even
after the account is closed. You must destroy all cards, access
checks or other credit devices on the account when the account is
closed.
When your account is closed, you must contact anyone authorized
to charge transactions to your account, such as internet service
providers, health clubs or insurance companies. These transactions
may continue to be charged to your account until you change the
billing. Also, if we believe you have authorized a transaction or are
attempting to use your account after you have requested to close
the account, we may allow the transaction to be charged to your
account.

ACCESS CHECKS
You may request a stop payment on an access check by providing
us with the access check number, dollar amount, and payee exactly
as they appear on the access check. Oral and written stop payment
requests on an access check are effective for six months from the
day that we place the stop payment.
You may not issue a postdated access check on your account. If you
do postdate an access check, we may elect to honor it upon
presentment or return it unpaid to the person that presented it to
us for payment, without in either case waiting for the date shown
on the access check. We are not liable to you for any loss or
expense arising out of the action we elect to take.

REFUSAL TO HONOR YOUR ACCOUNT
We may deny any transactions for any reason at our discretion. We
are not liable for any refusal to honor your account. This can include
a refusal to honor your card or account number or any check written
on your account. We are not liable for any retention of your card by
us, any other financial institution, or any provider of goods or
services.
RECURRING PREAUTHORIZED TRANSACTIONS
Recurring preauthorized transactions occur when you authorize a
merchant to automatically initiate a transaction using your account
on a recurring basis. If we issue a new credit card with a different
number or expiration date to you, we may (but are not obligated to)
provide your new card number and expiration date to a merchant
with whom you have set up a recurring preauthorized transaction in
order to continue your recurring preauthorized transactions. There
will be circumstances where you will have to contact the merchant.

MISCELLANEOUS
OVERDRAFT PROTECTION
If your eligible deposit account with Bank of America is linked to
this account, this overdraft protection feature will allow funds to be
transferred (overdraft protection transfers) from this account into
your designated deposit account with Bank of America when
transactions occur on your deposit account, such as checks or other
debits, that if paid would cause the deposit account to be
overdrawn (overdraft transactions). Overdraft protection transfers
include automatic transfers to cover deposit account fees.
Overdraft protection transfers are processed after close of business
Monday through Friday and are treated as Overdraft Protection
Cash Advances.

LIMITATIONS/WARNINGS
PURPOSES FOR USING YOUR ACCOUNT
You may not use this account to make a payment on this or any
other credit account with us or our affiliates. You may not use or
permit your account to be used to make any illegal transaction. You
will only use your account for transactions that are legal where you
conduct them. We may charge your account for such transactions.
We will not be liable if you engage in an illegal transaction. We may
deny authorization of any transactions identified as Internet
gambling. You may not use your account to conduct transactions in
any country or territory, or with any individual or entity that is
subject to economic sanctions administered and enforced by the
U.S. Department of the Treasury's Office of Foreign Assets Control
(OFAC). Use of your account in those countries will be blocked.

Prior to August 20, 2021, each day's overdraft transactions to be
funded by this account will be totaled and rounded to the next
$100.00 increment up to your available Cash Credit Line, regardless
of who initiated the overdraft transactions. For example, if your
deposit account has a balance of $5.00 and a check or other debit
item for $125.00 is presented for payment, which if paid would
cause your deposit account to be overdrawn, and your account is
subject to an Overdraft Protection Cash Advance fee, then an
overdraft protection transfer of $200.00 will be made to your
deposit account and an Overdraft Protection Cash Advance of
$200.00 will post to this account (in addition to the Overdraft
Protection Cash Advance fee). The Portion of Credit Available for

PERSONS USING YOUR ACCOUNT
If you permit any person to use your card, access checks, account
number, or other credit device with the authorization to obtain
credit on your account, you will be liable for all transactions made

5

Cash on this account must be sufficient to cover the amount of
overdraft transactions to be funded by this account (received by
Bank of America that day) rounded to the next $100.00 increment
(excluding any overdraft protection fee); otherwise one or more of
the overdraft transactions for that day will be rejected. However, if
the Portion of Credit Available for Cash on this account is greater
than the overdraft transaction amount, but the Portion of Credit
Available for Cash is insufficient for the overdraft transaction
amount to be rounded to the next $100.00 increment, then the
amount of the overdraft transaction will be the amount of your
Portion of Credit Available for Cash. Payments or credits to this
account may not impact your Portion of Credit Available for Cash
until after the posting date of the payments or credits.

security and quality assurance. We will not remind you that we may
be monitoring or recording a call at the outset of the call unless
required by law to do so.
Where you have provided a cell phone number directly to us, you
consent and agree to accept servicing calls and text messages to
your cell phone from us. For example, we may place calls to you
about fraud alerts or amounts you owe us (collection calls) on your
account. For any telephone or cell phone calls/communications we
place to you, you consent and agree that those calls may be
automatically dialed including prerecorded messages or texts. This
may include communications from companies working on our
behalf to service your account. Message and data rates may apply.
Communication Revocation: If you do not want to receive
automatically dialed communications for this account, including
prerecorded messages or texts, as described above, you must (1)
provide us with written notice revoking your prior consent; and (2)
in that written notice, include your name and mailing address as
they appear on the account, and the last four digits of your account
number. The notice must be sent to the address listed below.

Effective August 20, 2021, each day’s overdraft transactions to be
funded by this account will be totaled up to your available Cash
Credit Line, regardless of who initiated the overdraft transactions.
For example, if your deposit account has a balance of $5.00 and a
check or other debit item for $125.00 is presented for payment,
which if paid would cause your deposit account to be overdrawn,
and your deposit account is subject to a $12.00 deposit account
overdraft protection transfer fee, then an overdraft protection
transfer of $132.00 ($120.00 overdrawn balance plus $12.00
deposit account overdraft protection transfer fee) will be made to
your deposit account and an Overdraft Protection Cash Advance of
$132.00 will post to this account. The Portion of Credit Available
for Cash on this account must be sufficient to cover the amount of
overdraft transactions to be funded by this account (received by
Bank of America that day); otherwise one or more of the overdraft
transactions for that day will be rejected. Payments or credits to
this account may not impact your Portion of Credit Available for
Cash until after the posting date of the payments or credits.

PO Box 982236
El Paso, TX 79998-2236
CREDIT REPORTING AGENCIES; COLLECTING AND SHARING
INFORMATION
You authorize us to collect information about you in order to
conduct our business and deliver the top quality service you expect,
including information we receive about you, information we receive
from third parties such as credit reporting agencies and
information about your transactions with us and other companies.
You authorize us to share such information about you or your
account with our affiliates and others. You may have the right to
opt out of some information sharing. For more details, please refer
to our Privacy Notice.

We will not assess an Overdraft Protection Cash Advance fee for
any overdraft protection transfer from this account to a linked Bank
of America deposit account, if we determine that (a) your deposit
account is overdrawn by a total amount less than $12.00, after we
finish processing for the day, or (b) each overdraft transaction
processed that day is $1.00 or less. Effective June 18, 2021 for any
overdraft protection transfer from this account to a linked Bank of
America deposit account opened in GA, IL, KY, MI or TN, and
effective August 20, 2021 for any overdraft protection transfer to a
linked Bank of America deposit account opened in all other
locations, we will not assess a deposit account overdraft protection
transfer fee if we determine that (a) your deposit account is
overdrawn by a total amount of $1.00 or less after we finish
processing for the day, or (b) each overdraft transaction processed
that day is $1.00 or less. If your account is subject to an Overdraft
Protection Cash Advance fee, then overdraft protection transfers
will be assessed the Overdraft Protection Cash Advance fee for
each such Cash Advance. Overdraft Protection transfers incur
interest charges from the transaction date. We may permit or
refuse to permit any overdraft protection transfer that would cause
you to exceed the Cash Credit Line on this account. This overdraft
protection feature will automatically be cancelled if this account is
closed by either you or us, or at any time upon your request. Your
overdraft transactions remain subject to the terms of your deposit
account with Bank of America, any related enrollment agreement,
and this Agreement.

If you believe we have furnished inaccurate or incomplete
information about you or your account to a credit reporting
agency, write to us at: Bank of America, N.A., Credit Reporting
Agencies, P.O. Box 653059, Dallas, TX 75265-3059. Please
include your name, address, home phone number, and account
number, and explain what you believe is inaccurate or
incomplete.
BENEFITS
We may offer you certain benefits and services with your account.
Any benefits or services are not a part of this Agreement, but are
subject to the terms and restrictions outlined in the Benefits Guide
and other official documents provided to you from time to time by
or on behalf of Bank of America. We may adjust, add, or delete
benefits and services at any time and without notice to you.
WE MAY SELL YOUR ACCOUNT
We may at any time, and without notice to you, sell, assign or
transfer your account, any amounts due on your account, this
Agreement, or our rights or obligations under your account or this
Agreement to any person or entity. The person or entity to whom
we make any such sale, assignment or transfer shall be entitled to
all of our rights and shall assume our obligations under this
Agreement, to the extent sold, assigned or transferred.

TELEPHONE CALLS: CALLING, MONITORING AND
RECORDING
You consent to and authorize Bank of America, any of its affiliates,
its marketing associates, and independent contractors including
servicers, vendors and collection agents, to monitor and/or record
any of your telephone conversations and other electronic
communications with our representatives or the representatives of
any of those companies for reasonable business purposes including

YOU MUST NOTIFY US WHEN YOU CHANGE YOUR ADDRESS
You must notify us promptly when you change your address. We
may also change your address if so notified by the post office or
others.
WHAT LAW APPLIES

6

This Agreement is made in North Carolina and we extend credit to
you from North Carolina. This Agreement is governed by the laws of
the State of North Carolina (without regard to its conflict of laws
principles) and by any applicable federal laws.

• While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your Total
Credit Line.

PROVISIONS OF THIS AGREEMENT ARE SEVERABLE
If any provision of this Agreement is found to be invalid, the
remaining provisions will continue to be effective.

After we finish our investigation, one of two things will happen:
• If we determine there was a mistake: You will not have
to pay the amount in question or any interest or other
fees related to that amount.

We use section headings (e.g., Types of Transactions) to organize
this Agreement. The headings are for reference purposes only.

• If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may
then report you as delinquent, including to credit
reporting agencies, if you do not pay the amount we
think you owe.

UNAUTHORIZED USE OF YOUR ACCOUNT
Please notify us immediately of the loss, theft, or possible
unauthorized use of your account at 1.800.421.2110.

YOUR BILLING RIGHTS
Keep This Document For Future Use
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.

If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been
settled between us.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Bank of America
P.O. Box 672050
Dallas, TX 75267-2050

If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.

In your letter, give us the following information:

Your Rights If You Are Dissatisfied With Your Credit Card
Purchases

• Account information: Your name and account number.

If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not
to pay the remaining amount due on the purchase.

• Dollar amount: The dollar amount of the suspected
error.
• Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why
you believe it is a mistake.

To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address,
and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or
services.)

You must contact us:
• Within 60 days after the error appeared on your
statement.
• At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the
amount you think is wrong.
You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.

Note: It is very helpful if your letter includes the transaction date
and the reference number for the charge, if available.

3. You must not yet have fully paid for the purchase.

What Will Happen After We Receive Your Letter

If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at:

When we receive your letter, we must do two things:

Bank of America
P.O. Box 672050
Dallas, TX 75267-2050

1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you if
we have already corrected the error.

While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and
you do not pay, we may report you as delinquent.

2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or
report you as delinquent on that amount.

©2021 Bank of America Corporation. All rights reserved.

• The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.

7

